Planning and Early Implementation Efforts

        On February 20, 2009, the Department issued the “Economic Recovery Template and
Guidance for Project Lists.” This document included general guidance and an Excel spreadsheet
template in which to list projects and several corresponding data elements—outlined in the
guidance—for each project.1 Bureaus were then directed to develop a list of projects, and
associated data, that they planned to pay for with Recovery funds. Bureaus were also instructed
to develop implementation plans outlining Bureau processes and procedures for monitoring
projects, mitigating risks, and reporting. The development of these project lists and plans has
been a significant part of initial project planning throughout the Department, and they provide a
potential tool for accountability and transparency in Recovery Act implementation.

        With input from the Regions, FWS submitted one bureau-wide project list and one
bureau-wide implementation plan to the Department, and set expectations for the development of
implementation plans at the regional level. At the time of our visit, FWS Region 4 was waiting
for finalized Recovery Act Implementation guidance from Service headquarters. Therefore, it
had not yet fully completed regional plans for implementing its Recovery Act projects.
However, working from draft FWS Implementation guidance issued April 29, 2009, the Region
had taken several preliminary steps in its implementation efforts.

        The Region submitted and received Departmental approval on its initial list of proposed
Recovery Act projects, and it had integrated those projects into the regional Master Acquisition
Plan, which included assigning accounting codes and project managers for each project.
Regional staff had also submitted project substitutions for some projects on the initial Recovery
Act project list. The projects that were removed were already accomplished using other funding,
the funding could not be obligated by September 2010, or significant progress could not be made
on the project to ensure timely completion. Additionally, the Region assembled a Recovery
Action Team. The team meets regularly, and they were in the process of writing delegations of
authority and hiring additional personnel to help with Recovery Act efforts, including a program
analyst responsible for Recovery Act implementation and reporting, procurement personnel,
construction representatives, architects, civil engineers, and administrative help.

         As of June 8, 2009, the only Recovery Act money awarded in the Southeast Region was
for 37 Youth Conservation Corps (YCC) hires and 50 Student Temporary Employment Program
(STEP) participants. The team expressed confidence, however, in its ability to obligate its
remaining Recovery Act funds quickly and to manage projects efficiently by using the same
organizational structure, and many of the same processes and procedures, set in place during the
Hurricane Recovery effort. This Hurricane Recovery effort, by estimates of Regional staff, had
tripled their workload. We commended these efforts in our September 2008 audit report DOI’s
Hurricane Rebuilding Efforts,2 noting that FWS had successfully spent 90 percent ($145 million)
of its supplemental funding by the end of fiscal year 2007.

1
  Data elements include, among others, fiscal year in which deferred maintenance or line item construction projects 

are planned for funding in the bureau five year plans; state; project elements (including health and safety, energy, 

efficiency/green buildings, use of renewable energy sources, youth/community service, national icons, and treasured 

landscapes); proposed procurement instrument; NEPA compliance completed, permitting and consultation 

completed.

2
  C-IN-MOA-0006-2007. 

                                                                                                                   2
Hurricane Season Poses a Potential Barrier to Timely and Effective Implementation

         With hurricane season well under way, the Regional team did express concern over the
ability to balance the requirements of managing Recovery Act projects with those of hurricane
recovery efforts should a large hurricane hit the Region. Since our visit, the FWS finalized its
Recovery Act Implementation guidance and submitted it to the Department. In the finalized
guidance, the Service notes that in the event of a hurricane, “resources will be moved from other
regions to support the impacted region(s).” We share the concern over the ability of Region 4 to
balance hurricane relief and Recovery Act efforts simultaneously. In the response to our draft
report, FWS informed us that Region 4 had developed planning scenarios for responses to
hurricanes, and that the Region scheduled their Recovery Act projects accordingly to ensure
adequate management support. We are pleased with this approach and encourage the Region to
take advantage of calmer weather and continue moving expeditiously in implementing Recovery
Act projects in accordance with the obligation deadline of September 30, 2010.


cc: 	   Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Recovery Coordinator, U.S. Fish and Wildlife Service
        Audit Liaison, U.S. Fish and Wildlife Service
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                                                3
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
